September 2009
Report No. AUD-09-029


Material Loss Review of Security
Savings Bank, Henderson, Nevada
 
 
 
 
 
 
 
            AUDIT REPORT
                                    
                                           Report No. AUD-09-029                                    September 2009

                                           Material Loss Review of Security
                                           Savings Bank, Henderson, Nevada
   Federal Deposit Insurance Corporation   Audit Results
Why We Did The Audit                       CAUSES OF FAILURE AND MATERIAL LOSS
On February 27, 2009, the Nevada           Security Savings failed because bank management did not adequately
Department of Business and Industry,
                                           control the risks associated with its business strategy that focused on
Financial Institutions Division (NFID)
                                           (1) rapid asset growth, (2) significant concentrations in ADC loans,
closed Security Savings Bank,
                                           (3) investments in lower-quality mortgage-backed securities, and
Henderson, Nevada (Security
Savings), and named the FDIC as            (4) reliance on high-cost core deposits and volatile non-core funding.
receiver. On March 20, 2009, the           The deteriorating housing market in areas where Security held most of
FDIC notified the Office of Inspector      its loans led to significant loan and security losses that eroded the
General (OIG) that Security Savings’       bank’s capital and strained liquidity. Ultimately, Security Savings was
total assets at closing were               closed by NFID due to the bank’s capital insolvency.
$202 million and the estimated loss to
the Deposit Insurance Fund (DIF) was       OVERVIEW AND ASSESSMENT OF FDIC SUPERVISION
$59 million. As required by
section 38(k) of the Federal Deposit       Over the life of Security Savings, the FDIC conducted risk
Insurance (FDI) Act, the OIG               management examinations in compliance with the examination
conducted a material loss review of        frequency requirements of the FDI Act and made recommendations to
the failure of Security Savings.           Security Savings for improving areas of its operations, including
                                           identification and monitoring of loan concentrations, improving the
The audit objectives were to               allowance for loan and lease losses methodology and/or position,
(1) determine the causes of the            establishment of liquidity risk limits and contingency liquidity plans,
financial institution’s failure and        and enhancement of the internal/external audit function. Examiners
resulting material loss to the DIF and     also identified and resolved a significant violation of Federal Reserve
(2) evaluate the FDIC’s supervision of     Board Regulation 23(a), related to covered transactions with affiliates
the institution, including                 that resulted in Security Savings removing $26 million in loan
implementation of the Prompt
                                           participations from the bank’s loan portfolio. Of the $26 million, the
Corrective Action (PCA) provisions
                                           FDIC estimated that 50 percent of the loan balances outstanding would
of section 38.
                                           have been classified as loss had they remained with Security Savings.
                                           Finally, examiners were successful in convincing bank management to
Background                                 halt Security Savings’ continued growth of ADC lending and
Security Savings was a state-chartered     investment in lower-grade securities.
industrial loan company that was
insured on April 3, 2000. In addition      Notwithstanding those activities, the FDIC could have performed
to its main office, Security Savings       certain examination procedures and given greater attention to the
had two full-service branch offices        bank’s lending and funding activities that may have shed greater light
and three loan production offices in       on the extent of risks warranting supervisory concern. In addition,
Virginia, Florida, and Texas. In           once loan underwriting and administration policy and procedure
September 2004, Security Savings           deficiencies were identified in 2007, examiner recommendations for
was acquired by Stampede Holdings,         improvement were well-intentioned but not immediately successful in
Inc., a one-bank holding company.          prompting management to take actions that would prevent a further
As a result, the bank was subject to       decline in the bank’s financial position. In retrospect, a more forceful
additional supervisory oversight and       supervisory response to those deficiencies may have been warranted in
regulatory controls, including the         light of the related risk associated with Security Savings’ sizable
development and maintenance of a           concentrations and volatile funding.
current business plan and higher
capital maintenance standards.             With respect to PCA, the FDIC issued a notification to Security
                                           Savings alerting the bank of applicable restrictions under PCA when it
                                           fell below the Well Capitalized category, as required. However, the
                                           notification was not effective in preventing Security Savings’ failure
                                           and the resulting material loss to the insurance fund, because Security
                                           Savings was not categorized as Critically Undercapitalized until just
                                           prior to its failure.
Background (cont.)                        Management Response
Security Savings had a unique             After we issued our draft report, we met with management officials to
wholesale business model. The bank        further discuss our results. Management provided additional
engaged principally in purchasing         information for our consideration, and we revised our report to reflect
commercial real estate (CRE) loans,       this information, as appropriate. On September 16, 2009, the Director,
including a significant concentration     DSC, provided a written response to the draft report. That response
of acquisition, development and           was included in its entirety as an appendix of this report.
construction (ADC) loans, and loan
participations that were all serviced     DSC reiterated the OIG’s conclusions regarding the cause of Security
by others. In addition, the bank          Savings’ failure. With regard to our assessment of the FDIC’s
acquired both loans and securities that   supervision of Security Savings, DSC summarized several supervisory
provided higher yields and were           actions taken in relation to the institution’s activities. DSC also noted
higher-risk. The bank’s lending           that a well-managed balance sheet with a diversified asset portfolio is
activities were also centered in high-
                                          a sound banking practice, and that effective supervision is necessary in
growth markets, three of which –
                                          the early stages for institutions developing asset concentrations or
Florida, California, and Nevada –
                                          reliance on volatile funding. In that regard, DSC stated that it has
experienced significant economic
downturns starting in 2007.               issued updated guidance reminding examiners to take appropriate
                                          supervisory action when capital levels are inadequate for CRE
                                          concentrations or funding risks are imprudently managed.




To view the full report, go to
www.fdicig.gov/2009reports.asp
Contents                                                                Page


BACKGROUND                                                                2

CAUSES OF FAILURE AND MATERIAL LOSS                                       3

  High-Risk Business Strategy                                             3
    ADC Loans and Other Mortgage-Backed Securities Concentrations         4
    Volatile Liability Funding Dependence                                 6

OVERVIEW AND ASSESSMENT OF FDIC SUPERVISION                               9

  Overview of FDIC Supervision                                            9

  Assessment of FDIC Supervision                                         11
    ADC Loan Portfolio                                                   11
    Other Mortgage-Backed Securities Portfolio                           12
    Volatile Liability Dependence                                        12
    Long-Term Repurchase Agreements                                      13

IMPLEMENTATION OF PCA                                                    14


CORPORATION COMMENTS AND OIG EVALUATION                                  15


APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                  16
  2. GLOSSARY OF TERMS                                                   18
  3. CORPORATION COMMENTS                                                19
  4. ACRONYMS IN THE REPORT                                              20


TABLES
  1. Financial Condition of Security Savings                              3
  2. Funding Sources                                                      6
  3. Net Non-Core Fund Dependence Ratios                                  7
  4. Cost of Deposits                                                     8
  5. Examination History of Security Savings                              9


FIGURE
  1. ADC Loan Concentrations (Loans as a Percentage of Total Capital)     4
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     September 18, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews


SUBJECT:                                  Material Loss Review of Security Savings Bank,
                                          Henderson, Nevada (Report No. AUD-09-029)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss 1 review of the failure of Security
Savings Bank, Henderson, Nevada (Security Savings). On February 27, 2009, the
Nevada Department of Business and Industry, Financial Institutions Division (NFID)
closed the institution and named the FDIC as receiver. On March 20, 2009, the FDIC
notified the OIG that Security Savings’ total assets at closing were $202 million and the
material loss to the Deposit Insurance Fund (DIF) was $59 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision 2 of
the institution, including implementation of the PCA provisions of section 38 of the FDI
Act. Appendix 1 contains details on our objectives, scope, and methodology.



1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    Appendix 2 contains a glossary of terms, and Appendix 3 contains a list of acronyms
    used in the report.

    This report presents the FDIC OIG’s analysis of Security Savings’ failure and the FDIC’s
    efforts to ensure Security Savings’ management operated the bank in a safe and sound
    manner. We are not making recommendations. Instead, as major causes, trends, and
    common characteristics of financial institution failures are identified in our reviews, we
    will communicate those to management for its consideration. As resources allow, we
    may also conduct more in-depth reviews of specific aspects of DSC’s supervision
    program and make recommendations, as warranted.


BACKGROUND

    Security Savings was an FDIC-supervised state-chartered industrial loan company (ILC)
    established by the NFID and insured by the FDIC effective April 3, 2000. Security
    Savings, which was headquartered in Henderson, Nevada, had two full-service branch
    offices in Nevada, and three loan-production offices in Virginia, Florida, and Texas. The
    loan production offices and one branch were closed before the failure of the bank. The
    bank’s business model was that of a wholesale operation focusing on purchasing loan
    participations from across the nation. In particular, Security Savings specialized in
    commercial real estate (CRE) lending, with concentrations in CRE and acquisition,
    development, and construction (ADC) loans. The bank also invested in lower-rated
    investment-quality securities. In addition, the bank was dependent on potentially volatile
    liabilities for its funding.

    Security Savings was 100 percent owned by Stampede Holdings, Inc. (Stampede), Las
    Vegas, Nevada, a one-bank, non-commercial holding company. Stampede was a closely-
    held company with 41 shareholders. Stampede acquired the bank in September 2004. At
    the time of acquisition, Stampede replaced the bank’s management team, injected capital,
    opened the three loan production offices, and implemented a high-growth strategy.

    There was also an affiliate institution, which examiners determined to have been
    controlled by the principal shareholder of Stampede. (A matter related to an apparent
    violation of Federal Reserve Board (FRB) Regulation 23A, regarding covered
    transactions, is discussed later in this report.)

    A summary of Security Savings’ financial condition, as of December 2008, and for the 4
    preceding calendar years follows in Table 1.




                                                 2
      Table 1: Financial Condition of Security Savings
       Uniform Bank Performance Report           Dec-08       Dec-07          Dec-06     Dec-05     Dec-04
       Total Assets ($000s)                       $238,307    $273,291        $278,764   $202,061    $93,046
       Total Deposits ($000)                      $174,872    $179,545        $172,190   $115,837    $70,245
       Net Loans & Leases ($000s)                 $119,068    $180,240        $204,502   $127,451    $52,703
       Net Income ($000s)                        ($28,501)      ($1,991)        $2,472       $700        $20
      Source: Uniform Bank Performance Reports (UBPR) for Security Savings.



CAUSES OF FAILURE AND MATERIAL LOSS

      Security Savings failed because bank management did not adequately control the risks
      associated with its business strategy that focused on (1) rapid asset growth, (2) significant
      concentrations in ADC loans, (3) investments in lower-quality mortgage-backed
      securities, and (4) reliance on high-cost core deposits and volatile non-core funding. The
      deteriorating housing market in areas where Security held most of its loans led to
      significant loan and security losses that eroded the bank’s capital and strained liquidity.
      Ultimately, Security Savings was closed by NFID due to the bank’s capital insolvency.

      Evidence of the cause of a bank’s failure can often be seen in its adverse asset
      classifications. In the case of Security Savings, its adverse classifications resulted
      primarily from its portfolios of ADC loans and securities. As adverse asset
      classifications increased, earnings eroded, liquidity became strained, and capital became
      increasingly deficient.

      The bank’s business model was that of a wholesale operation focused on purchasing
      loans and loan participations across the nation. Since year-end 2006, three of the bank’s
      primary markets — Florida, California, and Nevada — experienced significant real estate
      price deterioration. As the deterioration in the housing market spread, Security Savings
      began to incur and recognize greater losses in its ADC loan portfolio. Specifically,
      adversely classified assets increased from $15.6 million reported in the June 2007 Report
      of Examination (ROE) to $40.9 million reported in the July 2008 ROE. The majority of
      adversely classified assets were purchased ADC loans to finance condominium and CRE
      construction projects in high-growth markets, including Florida, California, and Nevada.
      Further, for the periods ended December 2004 to December 2008, the bank’s net loan
      charge-offs (losses) totaled $13.3 million, of which $11.9 million was in the ADC loan
      portfolio. Additionally, for the years ended December 2007 and 2008, the bank
      recognized $12.7 million in losses associated with its securities.


High-Risk Business Strategy

      Security Savings’ management employed a rapid-growth business strategy in which it
      concentrated assets in higher-risk ADC loans and securities, and funded its asset growth
      with higher-cost core deposits and potentially volatile liabilities, without sufficient
      mitigating controls. Security Savings’ total assets increased 227 percent from December
      2004 to September 2007, peaking at almost $304 million. Losses associated with this


                                                        3
high-risk strategy were a significant contributing factor to the failure of Security Savings.
In particular, the following concerns were noted.

ADC Loans and Other Mortgage-Backed Securities Concentrations. Security
Savings’ asset quality problems were exacerbated by the bank’s rapid growth, emphasis
in high-growth and dispersed national markets, and concentrations in ADC loans that
were acquired from and serviced by others. In addition, the bank held concentrations in
lower-quality securities that were not backed by the U.S. Government. Specifically, as of
December 2008, the bank’s ADC loans totaled 495 percent of total capital and its
portfolio of Other Mortgage-Backed Securities 3 totaled 461 percent of total capital.
Further, Security Savings’ management permitted these loan and security concentrations
to exist without adequate risk identification, measurement, monitoring, and control. As
shown in Figure 1, which follows, the bank’s ADC loans began to increase significantly
in 2005 and exceeded the bank’s peer group averages. In addition, the bank’s
concentrations in Other Mortgage-Backed Securities began in 2004, and equaled
224 percent of total capital as of December 2004. Both categories of assets remained
major product segments into 2008.

Figure 1: ADC Loan Concentrations (Loans as a Percentage of Total Capital)
                                 600
                                                                                                                    495%*
                                 500                 Security Savings
    ADC Loans to Total Capital




                                                     Peer Group Average
                                 400
                                                                              306%
                                 300

                                                                                                     187%
                                 200
                                                              136%

                                 100
                                           58%                                107%                   108%
                                                               91%                                                    91%
                                   0       17%
                                                 4




                                                               5




                                                                               6




                                                                                                      7




                                                                                                                      8
                                              00




                                                            00




                                                                            00




                                                                                                   00




                                                                                                                   00
                                           -2




                                                         -2




                                                                         -2




                                                                                                -2




                                                                                                                -2
                                       ec




                                                     ec




                                                                     ec




                                                                                            ec




                                                                                                            ec
                                       D




                                                     D




                                                                     D




                                                                                            D




                                                                                                            D




                                                                         Period Ended

Source: OIG analysis of the UBPRs for Security Savings.
* The re-growth of the concentration level in 2008 is the result of increasing losses and declining capital
levels, rather than asset growth.

Also of note, the FDIC issued joint guidance titled, Concentrations in Commercial Real
Estate Lending, Sound Risk Management Practices, dated December 12, 2006 (2006
CRE Guidance), which emphasized the need for increased supervisory concern for those
banks with significant CRE concentrations, and especially for institutions that focus on


3
 Other Mortgage Backed Securities is a specific line item in a bank’s Report of Condition and Income
(Call Report).


                                                                                        4
ADC lending. In particular, the 2006 CRE Guidance defined significant concentrations,
in part, as total ADC loans representing 100 percent or more of total capital.

    •    ADC Loan Portfolio: Security Savings’ risk profile was further heightened due
         to management’s poor loan underwriting, administration, and risk analysis and
         recognition. Although ADC loans are typically considered a higher-risk loan
         product, 4 there were factors in Security Savings’ ADC loan portfolio that further
         increased risk. Specifically, Security Savings’ management pursued higher
         yielding loans by assuming a higher-risk position. In particular, management
         purchased some “mezzanine” loans that placed the bank in a subordinate position
         to other lien holders and subjected the bank to a first-loss position. Bank
         management also increased its participations in loans that the bank had internally
         identified as watch-list credits, which increased the bank’s overall risk. Further,
         Security Savings also purchased low-quality loans from an affiliate that
         management did not fully disclose, resulting in violations of FRB Regulation
         section 23A regarding covered transactions with affiliates. With the collapse of
         the subprime mortgage market and the tightening of the mortgage credit market,
         the bank was subject to significant losses, as real estate values declined.

         As noted in the July 2008 ROE, many of the single family residential ADC
         projects securing the bank’s loans were no longer viable because the projects
         experienced a substantial decline or a complete halt in sales as a result of the
         severe deterioration in residential markets. Furthermore, many of the projects
         lacked adequate secondary sources of repayment or borrower liquidity to fund
         shortfalls or make interest payments, leaving limited options outside of
         foreclosure. Such issues indicate poor underwriting of these ADC loans. The
         June 2007 and July 2008 ROEs also identified numerous documentation
         exceptions and loan risk identification and rating concerns.

    •    Other Mortgage-Backed Securities Portfolio: With respect to its portfolio of
         Other Mortgage-Backed Securities, after Security Savings’ change of control in
         2004, bank management began purchasing high yielding and higher-risk
         mortgage-backed securities. These investments were non-agency mortgage-
         backed securities, and some were lower-rated investment quality securities. At its
         peak, in September 2006, the bank held over $57 million in Other Mortgage-
         Backed Securities, which represented over 23 percent of total earning assets. Of
         these securities, as of June 2007, 72 percent were rated AAA, and 28 percent were
         rated BBB by the Standard & Poor’s (S&P) credit rating agency, when purchased.
         Investments graded BBB are at the lowest end of the S&P’s investment grade
         rating spectrum, and were reflective of the bank’s higher risk tolerance. In
         addition, these securities were complex investment instruments, and several were
         issued by distressed originators noted by the FDIC for lax underwriting. The
         underlying collateral supporting these securities consisted of significant volumes

4
  As stated in the FDIC’s Financial Institution Letter (FIL) FIL-110-98, dated October 8, 1998, “ADC
lending is a highly specialized field with inherent risks that must be managed and controlled to ensure that
this activity remains profitable.”


                                                       5
        of nontraditional mortgages predicated on low credit scores, limited
        documentation, second deeds of trusts, loan-to-value ratios in excess of
        80 percent, and loans containing interest-only features.

Volatile Liability Funding Dependence. Security Savings’ management employed a
funding structure that was centered on high-cost, potentially volatile funds to support its
rapid-growth strategy. The bank’s funding structure relied on wholesale and high-cost
funding sources, including:

    •   high-cost core deposits,
    •   brokered deposits,
    •   time deposits of $100,000 or greater,
    •   repurchase agreements, and
    •   Federal Home Loan Bank (FHLB) borrowings.

Further details on the bank’s funding sources are presented in Table 2, which follows.

Table 2: Funding Sources
                                              Non-Core Funding Sources
                                                (Dollars in Thousands)
               Core
  Period      Deposits
  Ended      (Dollars in    Time Deposits
                                              Brokered       Repurchase         FHLB
             Thousands)     of $100,000 or
                                              Deposits       Agreements       Borrowings
                                 More

  Dec-08       $139,298             $35,574        $41,384        $40,000          $20,000
  Dec-07       $146,045             $33,500        $30,991        $40,000          $25,000
  Dec-06       $147,938             $24,251        $65,904        $40,000          $38,500
  Dec-05        $45,271             $70,566        $59,451        $20,000          $48,000
  Dec-04        $27,182             $43,063        $33,396             $0           $9,500
Source: UBPRs for Security Savings.

As stated in the DSC Risk Management Manual of Examination Policies (DSC
Examination Manual), a heavy reliance on potentially volatile liabilities to fund asset
growth is a risky business strategy because the availability and access to these funds may
be limited in the event of deteriorating financial or economic conditions, and assets may
need to be sold at a loss in order to fund deposit withdrawals and other liquidity needs.
Management did not establish policies or controls that adequately limited or mitigated the
level of risk related to these activities.

A bank’s net non-core dependency ratio indicates the degree to which the bank is relying
on non-core/volatile liabilities to fund long-term earning assets. Generally, a lower ratio
reflects less risk exposure, whereas higher ratios indicate greater risk exposure and a
reliance on funding sources that may not be available in times of financial stress or
adverse changes in market conditions. For the years ended December 2004 to December
2008, the bank’s net non-core dependency ratio indicated that the bank was moderately to
highly dependent on volatile funding, as shown in Table 3.


                                               6
Table 3: Net Non-Core Fund Dependence Ratios
                                                                        Custom Peer
 Period        Security          Peer Group
                                                        PCTa              Group                PCTa
 Ended         Savings         (By Asset Size)
                                                                       (By Charter)b
  Dec-08             41.69%              30.48%                 71             41.33%                   45
  Dec-07             43.19%              21.01%                 93             36.55%                   50
  Dec-06             37.51%              21.13%                 78             39.80%                   41
  Dec-05             71.01%              19.20%                 98             32.38%                   72
  Dec-04             56.86%              13.41%                 98             33.32%       Not Available
Source: UBPRs for Security Savings.
a
  PCT represents the bank’s percentile ranking within the bank’s designated peer group average.
b
  As an ILC with assets greater than $100 million, the bank could not accept transaction accounts. This
restriction could result in a net non-core funding dependence ratio for ILCs that is (on average) inherently
higher than other (non-ILC) charter types.

The bank also increased its funding risk through the use of (1) high-rate and Internet core
deposits and (2) long-term repurchase agreements.

     •    High-Rate and Internet Core Deposits: Security Savings generated high-rate
          core deposits, in part, through an Internet deposit rate posting service. For the
          years ended December 2005 to December 2006, the majority of the bank’s core
          deposit growth was centered in time deposits of less than $100,000, with a
          remaining maturity of 1 year or less and, secondarily, in other savings accounts.
          The bank’s time deposit rates did not appear significantly higher than its
          designated peer group average, as presented in the UBPR. However, based on a
          review of the bank’s competitor rate survey, as of April 2007, the rates offered by
          Security Savings for time deposits of less than $100,000 exceeded the bank’s
          designated local market by 76 to 146 basis points, depending on the term of the
          deposit’s maturity. Further, the bank’s competitor rate survey indicated that
          management positioned the bank as one of the highest nation-wide savings
          account and money market account rate payers within the rate posting service.
          As shown in Table 4, for the years ended December 2005 to December 2008,
          Security Savings was in the 96th to 99th percentile ranking of its peer group
          average for rates paid on other savings deposits. These percentile rankings mean
          that the bank’s cost of other savings deposits was higher than almost all of the
          banks in its peer group. As a result, the bank’s core deposits exhibited “brokered
          deposit like” traits due to the higher than peer group average rates paid for these
          deposits. Also, as shown in Table 4, in comparison to other ILC-chartered
          institutions, the interest rates paid on the bank’s other savings deposits were
          substantially higher than the custom peer group averages.

          According to the DSC Examination Manual, although out-of-area deposits
          obtained from an Internet listing service are included in core deposits under the
          UBPR definition, it is nevertheless likely that such deposits should not be viewed
          as a stable funding source. Consequently, although the bank’s non-core
          dependency ratio declined, the bank’s overall risk profile does not appear to have
          been significantly reduced.


                                                       7
    Table 4: Cost of Deposits
        Period                      Total -                              Other Savings Deposits
        Ended             Interest Bearing Deposits
                                             Custom                                         Custom
                           Peer                                           Peer
                  Rate              PCTb      Peer     PCTb      Rate               PCTb     Peer      PCTb
                           Diff.a                                         Diff.a
                                              Diff.c                                         Diff.c
        Dec-08     3.89       .69      84       .21         56    3.28      1.34       97      1.60       94
        Dec-07     5.10      1.32      98       .51         62    4.87      2.27       99      2.32       87
        Dec-06     4.69      1.09      97       .54         70    4.46      1.71       96      2.13       81
        Dec-05     3.35       .88      95       .40         63    3.18      1.44       96      1.62       85
        Dec-04     3.59      1.79      99      1.40      Not      2.03       .96       98      1.01      Not
                                                       Avail.                                          Avail.
    Source: UBPRs for Security Savings.
    a
      Peer Diff. represents the difference between the bank’s rate and the peer group average’s rate. This
    difference provides an indication of which deposit products are potentially “brokered like.” For this
    assessment, a benchmark of 75 basis points is typically used.
    b
      PCT represents the bank’s percentile raking within the bank’s designated peer group average.
    c
      Custom Peer Diff. represents the difference between the bank’s rate and the custom (designated by the
    bank’s charter type) peer group average’s rate.

        •   Repurchase Agreements: Security Savings also increased its non-core funding
            risk by selling securities under complex long-term repurchase agreements. 5
            According to the July 2008 ROE, the agreements were entered into to replace
            long-term borrowings, overnight federal fund borrowing lines, and FHLB
            borrowings. During the quarter ending June 2005, the bank initially sold
            securities under short-term repurchase agreements. However, subsequently, three
            lots of securities were sold under long-term (7 to 8 years) repurchase agreements,
            in March 2006 for $10 million, in September 2006 for $20 million, and
            November 2006 for $10 million. These repurchase agreements contained
            features that protected the counterparty, including a charge (breakage fee) in case
            of cancellation of the agreement or contractual default by Security Savings.

            According to the DSC Examination Manual, the majority of repurchase
            agreements used by institutions are short-term in nature, and institutions typically
            use them as short-term, relatively low-cost, funding mechanisms. In addition,
            properly administered repurchase agreements that are conducted within a
            comprehensive asset/liability management program are not generally a regulatory
            concern. However, repurchase agreements that are inadequately controlled may
            expose an institution to the risk of loss, and the FDIC will regard them as an
            unsuitable investment practice. In the case of Security Savings, bank
            management entered into the long-term repurchase agreements without
            establishing adequate policies and procedures, performing a formal pre-purchase
            analysis, and providing the board of directors (BOD) full disclosure of all of the
            terms and conditions of the agreements. Ultimately, when the bank’s capital fell

5
 The DSC Examination Manual states that a securities repurchase agreement is created when an institution
agrees to sell a security to a counterparty and simultaneously commits to repurchase the security at a
mutually agreed upon future date, which is a form of secured borrowing. Most repurchase agreements are
day-to-day (overnight) funding, but terms of up to 1 or 2 years are not uncommon.


                                                        8
              below the PCA capital designation of Well Capitalized and/or was placed under a
              Cease and Desist Order (C&D) with a capital provision, the bank was in default
              of the repurchase agreements and subject to the $4 million charge described
              above. As of December 2008, the breakage fee represented 83 percent of the
              bank’s Tier 1 Capital.


OVERVIEW AND ASSESSMENT OF FDIC SUPERVISION

      Over the life of Security Savings, the FDIC provided supervisory oversight in many
      areas, including risk management examinations, visitations, and offsite monitoring.


Overview of FDIC Supervision

      The FDIC and NFID performed joint safety and soundness examinations of Security
      Savings in compliance with the examination frequency requirements of the FDI Act.
      Since Security Savings’ inception in 2000, the FDIC and NFID conducted a total of
      eight examinations and two visitations. After the bank underwent a change in control in
      September 2004, the FDIC and NFID conducted four examinations, as shown in Table 5,
      which follows. Security Savings’ composite rating was downgraded to a 3, indicating
      increasing risk, in the June 2007 ROE. As a result of the July 2008 examination, Security
      Savings’ composite rating was downgraded to a 5, indicating extremely unsafe and
      unsound practices or conditions, critically deficient performance, and inadequate risk
      management practices. Also of note, the FDIC performed the June 2006 and June 2007
      examinations under challenging circumstances due to bank management’s uncooperative
      behavior and adversarial demeanor.

      Table 5: Examination History of Security Savings
        Examination Date         Type       Supervisory Ratings (UFIRS)*
             07/29/2008           Joint                  455544/5
             06/18/2007           Joint                  333222/3
             06/05/2006           Joint                  222222/2
             05/31/2005           Joint                  222222/2
              05/10/2004             Joint                  222322/2
      Source: ROEs for Security Savings.
      *
        Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
      (UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
      Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
      Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
      through 5, with 1 having the least regulatory concern and 5 having the greatest concern.

      As a result of these examinations, the FDIC took various supervisory actions. In
      particular, within the ROEs, the FDIC made specific recommendations to Security
      Savings related to areas of its operations where improvements were needed. In the May
      2005 to July 2008 ROEs, the FDIC recommended varying enhancements and/or
      improvements to the bank’s allowance for loan and lease losses (ALLL) methodology,

                                                           9
ALLL position, identification and monitoring of concentrations, and internal/external
audit programs. In the June 2006 ROE, the FDIC also largely identified the bank’s
securities portfolio weaknesses and recommended various policy improvements.

Further, when the bank’s adversely classified loans began to significantly increase, as
reported in the June 2007 ROE, the FDIC identified more significant concerns with, and
recommended improvements to, the bank’s management and BOD supervision, loan
underwriting and administration, ongoing assessment of the bank’s securities portfolio,
and volatile liability funding.

Supervisory action was effective in reducing certain risks and in mitigating losses to the
DIF. During the June 2007 examination, these actions included the identification and
resolution of a significant violation of FRB Regulation 23A, related to covered
transactions with affiliates. Examiners identified an affiliated relationship that existed
between the bank and a non-bank financial institution that bank management failed to
fully disclose. As a result, examiners caused the removal of $26 million in loan
participations from the bank’s loan portfolio. Of the $26 million, the FDIC estimated that
50 percent of the loan balances outstanding would have been classified as loss had they
remained with Security Savings. Another supervisory action included the examiners’
convincing bank management to halt Security Savings’ continued growth of ADC
lending and investment in lower-grade securities.

Further, to address examiner concerns as documented in the June 2007 ROE, including
apparent violations of laws and regulations, inadequate risk management controls, and
other safety and soundness issues, the bank adopted a Bank Board Resolution (BBR) on
July 19, 2007. Subsequently, the FDIC and NFID determined that a Memorandum of
Understanding (MOU) would be more appropriate. The MOU became effective in May
2008 and contained 15 provisions addressing: management, capital, commercial real
estate concentrations, the ALLL methodology, adversely classified assets, the strategic
business plan, violations, investment and related-party transactions, and restrictions on
non-agency mortgage-backed securities. The MOU also required Security Savings to
maintain a Tier 1 Leverage Capital ratio of at least 9.75 percent, and for management to
develop a plan to monitor and reduce the CRE loan portfolio concentration to 250 percent
of total risk-based capital. In addition, the MOU contained a provision that addressed the
bank’s management, stating:

       … the Bank shall retain management acceptable to the Regional Director… Such
       management must include a chief executive officer and an appropriate number
       and type of senior officers, with the requisite knowledge, skills, ability, and
       experience…

According to the July 2008 ROE, the BOD hired a chief operating officer, a compliance
officer, two additional asset managers, and two new information technicians. In addition,
an outside consultant was hired to review bank management. The ROE also noted that
the core executive management team remained the same and that the BOD did not have
the power to employ or terminate an executive officer without unanimous consent of the


                                             10
      BOD, of which the bank’s executive managers were members. Based on the FDIC’s
      actions, the BOD obtained the power to hire and terminate executive management by a
      majority vote. Following the July 2008 examination, the executive management team
      was replaced.

      The FDIC’s final supervisory action before the bank was closed was the issuance of a
      C&D on February 3, 2009.


Assessment of FDIC Supervision

      Although the FDIC’s supervision was comprehensive and effective in mitigating certain
      losses to the DIF, we concluded that the Corporation could have performed certain
      additional analysis, exercised greater supervisory concern, and taken additional action to
      help mitigate the potential level of losses incurred.

      ADC Loan Portfolio. In retrospect, the FDIC did not recognize the extent to which
      Security Savings had ADC loan underwriting and credit administration weaknesses on a
      timely basis. Beginning in 2005, management began purchasing higher yielding and
      higher-risk ADC loans. As noted previously, some of these loans were mezzanine loans,
      and 22 percent of the bank’s total loan portfolio contained interest rates exceeding
      10 percent, rates that were significantly higher than its competitors. Although these loans
      were in the bank’s portfolio since the middle of 2005, the volume of higher yielding and
      higher-risk ADC loans was not raised as a concern until the June 2007 examination.
      Examiners told us that these loans were not raised as a concern due, in part, to the loans
      being current, relatively new, and/or unseasoned. However, based on our review of the
      June 2006 examination work papers, we noted that 5 of 15 ADC loans that were not
      adversely classified contained potential areas of concern, including apparent project
      delays and/or questionable collateral valuations. 6

      The FDIC also reported on numerous loan underwriting and administration deficiencies
      involving the bank’s policies and procedures in the June 2007 examination. These
      weaknesses included such areas as the following:

          •   loan underwriting risk selection practices;
          •   financial statement and documentation standards, and documentation collection
              and verification procedures;
          •   establishment of guidelines for subsequent collateral evaluations;
          •   ongoing credit analysis of borrower repayment capacity;
          •   concentrations identification, monitoring, and limitation;
          •   establishment of interest reserve policies and guidelines;
          •   establishment of guidelines for recognition of non-accrual and charged-off loans;
              and

      6
       It should be noted that we are not expressing an opinion on whether these five loans should have been
      adversely classified.


                                                            11
    •   enhancement of ADC loan administrative staff.

Had these issues been identified earlier, then FDIC could have taken earlier actions to
reduce and/or mitigate the level of Security Savings’ risk.

Other Mortgage-Backed Securities Portfolio. In the June 2006 ROE, the FDIC
identified the excessive risk and weaknesses within Security Savings’ securities portfolio
and recommended to Security Savings various critical policy and procedural
improvements. Specifically, the ROE cited a contravention of the Supervisory Policy
Statement on Investment Securities and End-User Derivatives, noting that the BOD had
not established risk tolerances for the type and quality of investments, criticizing the lack
of independence within the investment function, and stating that the pre-purchase
analysis should be strengthened and that this information should be provided to the board.
However, it was not until the June 2007 examination that the FDIC recommended that
bank management perform a more comprehensive (on-going) review of the higher-risk
securities – beyond a verification of the ratings assigned. Had bank management
developed a more comprehensive risk management process, it could have better
anticipated and reacted to changing market conditions. For example, management could
have discontinued its purchase of these higher-risk securities, or mitigated risk by selling
securities in its portfolio or increasing capital. Security Savings purchased its last Other
Mortgage-Backed Security in September 2006. However, bank management did not
formally commit to halt its investment practices until May 2008 – in response to the June
2007 ROE and May 2008 MOU – and examiners continued to report managerial
weaknesses over the bank’s investment portfolio until just before the bank’s failure.

The FDIC subsequently issued a FIL titled, Risk Management of Investments in
Structured Credit Products, dated April 2009. The guidance re-emphasizes to banks the
importance of monitoring the underlying collateral performance in structured
investments. The guidance states:

       Institution must understand not only an investment’s structural characteristics, but
       also the composition and credit characteristics of the underlying collateral.
       Management should conduct analysis at both the deal and pool level using
       information that sufficiently captures collateral characteristics. Such analysis
       should be conducted prior to acquisition and on an ongoing basis to monitor and
       limit risk exposures.
Volatile Liability Dependence. Since the May 2004 examination, the FDIC reported on
the bank’s level and trend of net non-core funding. Although the bank’s net non-core
funding dependence ratio fluctuated from a moderate level of 37 percent to a high of
73 percent, the FDIC noted that the bank’s volatile liability dependence risk was
mitigated based on one or more of the following:

•   The bank’s position was similar to the projected levels detailed within the bank’s
    formally approved 2004 Change of Control Business Plan.
•   The bank’s business model inherently relied on the use of non-core funding, as
    industrial loan charters have limited access to demand deposits.


                                               12
    •   Management’s effective asset liability management and monitoring practices mitigate
        concerns related to high non-core funding.

    Notwithstanding the above mitigating factors, the FDIC could have expressed a greater
    level of concern when the bank’s net non-core funding dependence ratio was reported at
    73 percent in the May 2005 ROE and 70 percent in the June 2006 ROE. In addition,
    based on our review of the 2004 Change of Control Business Plan, the clarity of the
    bank’s future risk profile was not clearly established, and should not have been used as a
    mitigating factor. In particular, the volume of higher-risk ADC loans was understated
    and residential loans were overstated, the quality of investment grade securities was not
    detailed, and the use of long-term repurchase agreements was not discussed or accounted
    for within the bank’s projected borrowings.

    Further, the FDIC could have required the bank to improve its Asset/Liability
    Management Policies with regard to establishing reasonable volatility risk limits and
    creating/improving its contingency liquidity plan 7 to help mitigate the risk earlier. The
    FDIC did not require the bank to reduce its dependence on potentially volatile funding
    sources, set reasonable limits, or require the development of, or improvements to, a
    contingency liquidity plan until the July 2008 examination.

    Long-Term Repurchase Agreements. Until the July 2008 examination, the FDIC did
    not review for, and the bank did not perform, a formal pre-purchase analysis of the
    bank’s long-term repurchase agreements. Based on the sequence of transactions, one
    long-term repurchase agreement was initiated before, and two were initiated after, the
    completion of the June 2006 examination. However, during the June 2006 examination,
    the FDIC did not identify or assess the nature of the bank’s repurchase agreements. As a
    result, the excessive and uncontrolled risk posed, in particular, by the long-term
    maturities of the agreements and breakage fees was undetected. As discussed earlier, the
    DSC Examination Manual discusses the risky nature of these long-term agreements. In
    addition, the Liquidity Examination Documentation Module suggests that examiners
    assess the reasonableness of the bank’s use of wholesale and rate-sensitive funding
    sources, in part, by identifying and evaluating the sources, terms, and embedded options
    of all significant borrowings or market instruments (such as repurchase agreements) and
    by determining the extent and use of those funds. If the FDIC had reviewed for and
    detected these risks earlier, then the latter two transactions could have been halted and/or
    more conservative funding agreements urged. As a result, the FDIC could have
    prompted the bank to reduce its potential funding risk and loss exposure.




IMPLEMENTATION OF PCA


    7
      DSC uses the terms contingency liquidity plan, liquidity contingency plan, and contingency funding plan
    interchangeably. For purposes of this report, we use contingency liquidity plan.


                                                         13
    The purpose of PCA is to resolve problems of insured depository institutions at the least
    possible long-term cost to the DIF. PCA establishes a system of restrictions and
    mandatory and discretionary supervisory actions that are to be triggered depending on an
    institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
    PCA requirements by establishing a framework for taking prompt corrective action
    against insured nonmember banks that are not adequately capitalized.

    PCA had limited impact in mitigating the bank’s losses, because Security Savings was
    not categorized as Critically Undercapitalized until just prior to its failure. Specifically,
    based on the FDIC’s analysis of the December 31, 2008 Call Report filed on January 30,
    2009, the FDIC calculated the bank’s key capital ratios as follows:

       •   Tier 1 Leverage Capital         1.91 percent
       •   Tier 1 Risk-Based Capital       3.56 percent
       •   Total Risk-Based Capital        4.84 percent
       •   Tangible Equity Capital         0.99 percent

    Under PCA provisions in Part 325 of the FDIC’s Rules and Regulations, a Tangible
    Equity Capital ratio at or below 2 percent reflects a Critically Undercapitalized capital
    category. As a result, on February 5, 2009, the FDIC presented Security Savings’ BOD
    with a PCA Notification of Capital Category letter that notified the bank of its Critically
    Undercapitalized capital category. In addition, the letter notified bank management that
    Security Savings was required to submit a capital restoration plan, was subject to certain
    mandatory restrictions, and was required to obtain the FDIC’s written approval before
    engaging in certain activities.

    Subsequent to the June 2007 examination, Security Savings did attempt to obtain
    additional capital to strengthen the bank’s balance sheet. Specifically, the bank identified
    potential investor groups willing to provide capital. However, according to senior
    officials in the FDIC’s San Francisco Regional Office, the FDIC ultimately determined
    with the concurrence of the NFID that such sources were not viable or appropriate
    solutions to address the bank’s worsening financial condition.

    It should be noted that 2 days prior to the bank’s official PCA notification of Capital
    Category, the bank was subject to a formal action that contained a capital provision.
    Specifically, based on the results of the July 2008 examination, the FDIC and NFID
    issued a joint C&D on February 3, 2009 that contained a capital provision that directed
    Security Savings to maintain its Tier 1 Leverage Capital ratio to 10 percent. As a result
    of the C&D provision, Security Savings was subject to certain PCA restrictions,
    including those related to increasing the amount of brokered deposits.




CORPORATION COMMENTS AND OIG EVALUATION



                                                   14
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On September 16, 2009, the
Director, DSC, provided a written response to the draft report. That response is provided
in its entirety as Appendix 3 of this report.

DSC reiterated the OIG’s conclusions regarding the cause of Security Savings’ failure.
With regard to our assessment of the FDIC’s supervision of Security Savings, DSC
summarized several supervisory actions taken in relation to the institution’s activities.
DSC also noted that a well-managed balance sheet with a diversified asset portfolio is a
sound banking practice, and that effective supervision is necessary in the early stages for
institutions developing asset concentrations or reliance on volatile funding. In that
regard, DSC stated that it has issued updated guidance reminding examiners to take
appropriate supervisory action when capital levels are inadequate for CRE concentrations
or funding risks are imprudently managed.




                                              15
                                                                                    APPENDIX 1
                        OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which
      provides, in general, that if a deposit insurance fund incurs a material loss with respect to
      an insured depository institution, the Inspector General of the appropriate federal banking
      agency shall prepare a report to that agency, reviewing the agency’s supervision of the
      institution. The FDI Act requires that the report be completed within 6 months after it
      becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted this performance audit from March to September 2009 in accordance with
      generally accepted government auditing standards. Those standards require that we plan
      and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
      basis for our findings and conclusions based on our audit objectives. We believe that the
      evidence obtained provides a reasonable basis for our findings and conclusions based on
      our audit objectives.


Scope and Methodology

      The scope of this audit included an analysis of Security Savings Bank’s operations, which
      opened on April 3, 2000 until its failure on February 27, 2009. Our review also entailed
      an evaluation of the regulatory supervision of the institution over the same period.

      To achieve the audit objectives, we performed the following procedures and techniques:

         •   Analyzed examination and visitation reports prepared by the FDIC and the NFID
             from 2005 to 2008.

         •   Analyzed available examination work papers prepared by the FDIC and the NFID
             from 2006 to 2008.

         •   Reviewed the following:

             - Bank data and correspondence maintained at the DSC’s San Francisco
               Regional Office and Phoenix Field Office.
             - Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.
             - Reports from the bank’s external auditors, McGladrey and Pullen, CPAs, Las
               Vegas, Nevada, and Mayer Hoffman McCann P.C., Salt Lake City, Utah.
             - Pertinent DSC policies and procedures.




                                                     16
                                                                                     APPENDIX 1


         •   Interviewed the following FDIC officials:

             - DSC management in Washington, D.C.; and San Francisco, California.
             - FDIC examiners from the DSC Phoenix and Orange County Field Offices
               who participated in Security Savings examinations.

         •   Interviewed officials from the NFID of Las Vegas, Nevada, to discuss their
             historical perspective of the institution, its examinations, and other activities
             regarding the NFID’s supervision of the bank.

      We performed our audit field work at the OIG offices in Arlington, Virginia.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

      Consistent with the audit objectives, we did not assess DSC’s overall internal control or
      management control structure. We relied on information in DSC systems, reports, ROEs,
      and interviews of examiners to understand Security Savings’ management controls
      pertaining to causes of failure and material loss as discussed in the body of this report.

      We obtained data from various FDIC systems but determined that information system
      controls were not significant to the audit objectives, and therefore, did not evaluate the
      effectiveness of information system controls. We relied on our analysis of information
      from various sources, including ROEs, correspondence files, and testimonial evidence to
      corroborate data obtained from systems that were used to support our audit conclusions.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment was not part of the audit objectives. DSC’s
      compliance with the Results Act is reviewed in OIG program audits of DSC operations.

      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with the provisions of PCA and limited tests to
      determine compliance with certain aspects of the FDI Act. The results of our tests were
      discussed where appropriate in the report. Additionally, we assessed the risk of fraud and
      abuse related to our objectives in the course of evaluating audit evidence.




                                                     17
                                                                                   APPENDIX 2
                                GLOSSARY OF TERMS


      Term                                              Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to highest)
                    into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and lease
Losses (ALLL)       portfolio (including all binding commitments to lend). To the extent not
                    provided for in a separate liability account, the ALLL should also be sufficient
                    to absorb estimated loan losses associated with off-balance sheet loan
                    instruments such as standby letters of loan.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound practice or a
                    violation of laws and regulations. A C&D may be terminated when the bank’s
                    condition has significantly improved and the action is no longer needed or the
                    bank has materially complied with its terms.


Concentration       A concentration is a significantly large volume of economically related assets
                    that an institution has advanced or committed to a certain industry, person,
                    entity, or affiliated group. These assets may, in the aggregate, present a
                    substantial risk to the safety and soundness of the institution.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325, subpart B,
(PCA)               of the FDIC Rules and Regulations, 12 Code of Federal Regulations, section
                    325.101, et. seq., implements section 38, Prompt Corrective Action, of the FDI
                    Act, 12 United States Code section 1831o, by establishing a framework for
                    taking prompt supervisory actions against insured nonmember banks that are
                    less than adequately capitalized. The following terms are used to describe
                    capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                    Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action or
                    compliance with the PCA statute with respect to an institution that falls within
                    any of the three categories of undercapitalized institutions.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data and
Performance         ratios that includes extensive comparisons to peer group performance. The
Report (UBPR)       Federal Financial Institutions Examination Council produces the report
                    quarterly, from banks’ Call Report data, for use by banking supervisors,
                    bankers, and the general public.




                                                18
                                                                                                           APPENDIX 3
                            CORPORATION COMMENTS




FDII
Federal Deposit Insurance Corpration
 550 17th Street NW. Wasington. D.C 2042999                          Division of Supervision an Cosur Protecti




                                                                    September 16. 2009


TO: Steven M. Beard
                 Assistant Inspector General for Material Loss Reviews

FROM: Sandra L. Thompson
                 Director

SUBJECT: Draft Audit Report Entitled. Material Loss Review of Security Savings Bank,
           Henderson. Nevada (Assignment No. 2009-031)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
Insurance Corporation's Offce of Inspector General (OIG) conducted a Material Loss Review of
Security Savings Bank (Security), which failed on February 27, 2009. This memorandum is the
response of the Division of Supervision and Consumer Protection (DSC) to the OIG's Draft Audit
Report (Report) received on August 28, 2009.

The 010 found that Security failed primarily due to management's pursuit of           rapid growth in
Acquisition, Development, and Construction (ADC) loans and lower quality mortgage-backed
securities, funded with higher cost core deposits and volatile wholesale sources. With the significant
real estate price declines in Florida and Nevada, two of  Security's primary markets, and general
economic downturn that accelerated in 2007, operating losses eroded earings and capital, straining
liquidity to the magnitude that led to capital insolvency and ultimately failure.

The Report concludes that the FDIC and Nevada Deparment of            Business and Industry, Financial
Institutions Division (NFID) made specific recommendations and took various supervisory actions
related to improving Security's operations as early as 2005. Furthermore, the Report notes that
supervision was effective in reducing certain risks through the issuance of an enforcement action
following the 2007 examination. This action halted the growth of ADC lending and investments in
lower-graded securities. Examiners also identified a significant regulatory violation, resulting from
transactions with a previously unreported affliate, which resulted in the removal ofS26 million in loan
participations from Security's portfolio, thereby mitigating the ultimate loss to the Deposit Insurance
Fund.

A well managed balance sheet. with a diversilied asset portlolio. is a sound banking practice. Effective
supervision is necessary in the early stages for institutions developing asset concentrations or reliance
on volatile li.inding. DSC has issued updated guidance reminding examiners to take appropriate
supervisory action when capital levels are inadequate for CRE concentrations or tunding risks are
imprudently managed.

Thank you for the opportunity to review and comment on the Report.




                                                       19
                                                                  APPENDIX 4
                      ACRONYMS IN THE REPORT



Acronym   Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
BBR       Bank Board Resolution
BOD       Board of Directors
C&D       Cease and Desist Order
CAMELS    Capital, Asset Quality, Management, Earnings,
          Liquidity, and Sensitivity to Market Risk
CRE       Commercial Real Estate
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FHLB      Federal Home Loan Bank
FIL       Financial Institution Letter
FRB       Federal Reserve Board
ILC       Industrial Loan Company
MOU       Memorandum of Understanding
NFID      Nevada Department of Business and Industry, Financial
          Institutions Division
OIG       Office of Inspector General
PCA       Prompt Corrective Action
ROE       Report of Examination
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institution Rating System




                                         20
